No.
IN THE
Supreme Court of the United States
JENITA CLANCY
Petitioner,
v.

Lloyd James Austin III
Secretary, Department of Defense
Respondent

I Jenita Clancy, do swear or declare that on this date, March 4,2021, as required by Supreme Court
Rule 29 1 have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding or that party's
counsel, and on every other person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with first-class postage
prepaid, or by delivery to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
OFFICE OF THE CLERK
Supreme Court of the United States
Washington, D.C. 20543
SOLICITOR GENERAL OF THE UNITED STATES
Room 5614, Department of Justice
950 Pennsylvania Ave., N.W. Washington, D.C. 20530-0001
Chris. Allman@usdoj. gov
Luke. sinclair@usdoj. gov

